DOEF' ,)5.8
       "
(08-93")                                                                                                           *
United States Government                                                              Department of Energy


memorandum
           DATE:    November 27, 2002                                                   OAS-L-03-06
   REPLY TO
     ATTN OF:       IG-35 (A02LA042/A02LL019)

     SUBJECT:       Audit of "Recruitment and Retention at the Los Alamos and Lawrence Livermore National
                    Laboratories"

              TO:   Administrator, National Nuclear Security Administration

                    INTRODUCTION AND OBJECTIVE

                    The U.S. Nuclear Weapons Program's mission of maintaining a safe and reliable nuclear
                    weapons stockpile relies on the National Nuclear Security Administration's (NNSA), the
                    Los Alamos National Laboratories' (Los Alamos), and the Lawrence Livermore National
                    Laboratories' (Livermore) ability to develop a new generation of highly qualified
                    professionals. It is essential that Los Alamos and Livermore recruit and retain individuals
                    with the knowledge and skills to accomplish the mission. Fundamental needs include
                    identification of the skills required to achieve the mission and development of a systematic
                    approach ensuring that people with critical skills are in place when required.

                    The Office of Inspector General has previously reported that the lack of a critical-skilled
                    workforce has impacted program readiness and project evaluations. For example,
                    NationalNuclear Security Administration'sTest Readiness Program(DOE/IG-0566,
                    September 2002) stated that the Department of Energy's (Department) ability to conduct an
                    underground nuclear test within established parameters was at risk because the Nevada
                    Operations Office and its support organizations have lost nearly 50 percent of their
                    underground nuclear test-experienced personnel in the last five years. Recruitment and
                    Retention of Scientific and Technical Personnel(DOE/IG-0512, July 2001) stated that
                    when the Department's newest weapon system, the W88, reaches the end of its original
                    design life in 2014, there may no longer be test-based job experienced personnel to
                    evaluate modifications that may be required. To attract and retain the best scientific and
                    technical talent, Los Alamos and Livermore must affirm the importance of their nuclear
                    missions and continue to maintain a climate where excellent science and technical work
                    can be performed.

                    In January 2001, NNSA incorporated an Appendix O (Appendix) into the Los Alamos and
                    Livermore contracts to address the critical skills shortages. The overall goal of the
                    Appendix was to develop and deploy an aggressive, multi-laboratory strategy and a
                    comprehensive plan to ensure that critical skills, knowledge, and technical capabilities
were available to the Nuclear Weapons Program. The objective of our audit was to
determine whether Los Alamos and Livermore were meeting NNSA's recruitment and
retention objectives.

CONCLUSIONS AND OBSERVATIONS

The Los Alamos and Livermore Laboratories have addressed NNSA's recruitment and
retention program objectives. The Laboratories have developed and deployed a multi-
laboratory strategy to recruit and retain Critical Skill Employees (CSE). Los Alamos and
Livermore have collaborated and developed indicators to track the progress of CSE and to
assess the current and future workforce projection over the next five years. In addition, the
Laboratories have integrated and deployed incentives to recruit and retain CSE. For
example, the Laboratories have initiated signing bonuses for new employees, monthly
stipends for high turnover areas, flexible work schedules, and mentoring programs to
match early career employees with eligible retirees. Along with employee incentives, the
Laboratories have developed collaboration with other research universities, increased the
recruiting personnel, and have promoted a positive public perception of the Laboratories.

Although the Laboratories have succeeded in developing and implementing a multi-
program strategy to recruit and retain CSE, it is too early to measure the program's
effectiveness. Thus, we want to stress the importance of measuring and monitoring the
Laboratories efforts to ensure that NNSA's future needs are met.

SCOPE AND METHODOLOGY

We conducted the audit at Los Alamos and Livermore from August 2002 to November
2002. The audit focused on CSE and workforce documents during Fiscal Years 1999
through 2002.

To accomplish the objective, we:

     * Reviewed related internal audit reports;
     * Interviewed NNSA Human Resources and Los Alamos and Livermore officials;
     * Analyzed Appendix Oof the Los Alamos and Livermore contracts;
     * Reviewed recruitment and retention documents provided by the Albuquerque and
       Oakland Operations Offices; and,
     * Reviewed Los Alamos' and Livermore's semi-annual assessment reporting
       documents.

The audit was conducted in accordance with the Generally Accepted Government
Auditing Standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed internal controls related to human resources for the locations we
reviewed. We could not assess performance measures under the Government Performance




                                      2
and Results Act of 1993 because there were no specific performance measures for CSE.
Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit.

We discussed the results of this audit with officials from Los Alamos and Livermore and
the audit liaisons from the Albuquerque and Oakland Operations Offices on November 6,
2002. Since no recommendations are being made, a formal response is not required. We
appreciate the courtesies and cooperation provided to us during this audit.




                                     Lawrence R. Ackerly, Division Director
                                     National Nuclear Security Administration
                                      Audits Division
                                     Office of Inspector General

cc: Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, ME-2
    Leonard Raab, Audit Liaison, Albuquerque Operations Office
    Eileen Rountree-McLennan, Audit Liaison, Oakland Operations Office




                                    3
DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


memorandum
       DATE:     October 28, 2002

  REPLY TO
   ATTN OF:      IG-35 (A02LV029)

    SUBJECT:     Final Report Package for "Assessment of Changes to the Internal Control Structure
                 and Their Impact on the Allowability of Costs Claimed by and Reimbursed to
                 Bechtel Nevada Corporation Under Department of Energy Contract No.
                 DE-AC08-96NV11718"
           TO:   Director for Performance Audits and Administration

                 Attached is the required final report package on the subject audit. The pertinent details are:

                 1. Actual Staff days: 102

                   Actual Elapsed days: 124

                   Staff and Elapsed days exceeded.the planned amounts because we had difficulty
                   obtaining documents from Bechtel for our review, and we had to increase our testing of
                   Internal Audit transactions once we identified deficiencies in foreign travel costs.

                 2. Names of OIG audit staff:

                   Assistant Director: Tara Elmore
                   Team Leader: Vickie Scofield
                   Auditor-in-Charge: Barbara Wilson
                   Audit Staff: Kelley Boyle

                 3. Coordination with Investigations and Inspections: Draft report sent to Adrian Gallegos,
                    Investigations and Henry Minner, Inspections on September 11, 2002. Their comments
                    did not indicate any specific issues with the report.



                                                         awrence R. Ackery ivisi Director
                                                        National Nuclear Security Administration
                                                         Audits Division
                                                        Office of Inspector General

                 Attachments:
                 1. Final Report (2)
                 2. Monetary Impact Statement
                 3. Audit Project Summary Report
                 4. Transmittal Memorandums
                                   MONETARY IMPACT OF REPORT NO.: OAS-V-03-01

      1. Title of Audit:            Assessment of Changes to the Internal Control Structure and their
                                    Impact on the Allowability of Costs Claimed by and Reimbursed to
                                    Bechtel Nevada Corporation under Department of Energy Contract
                                    No. DE-AC08-96NV11718

      2. Division:                  NNSA Audits Division, Las Vegas Audit Group

      3. Project No.:               A02LV029

      4. Type of Audit:

             Financial:                X                                 Performance:
                 Financial Statement                                        Economy and Efficiency
                 Financial Related               X (SCIC)                   Program Results
             Other (specify type):
5.

                                                                                                                       MGT.                  POTENTIAL
          FINDING                           BETTER USED                          QUESTIONED COSTS                    POSITION                 BUDGET
                                                                                                                                               IMPACT
                                                     Recurring_
(A)             (B)                  (C)     (D)         (E)     (F)        (G)          (H)           (I)              (J)                     (K)
                Title               One     Amount       No.    Total    Questioned    Unnsup-        Total          C=Concur                  Y=Yes
                                    Time     Per        Yrs.    Amou      Portion       ported                       N=Noncon                  N=No
                                             Year                 nt                   Portion                        U=Undec
1     Use of Travel Credit Cards                                        Undetermined              Undetermined
2     Foreign Travel                                                                   $977,684     $977,684
3     Records Destroyed                                                 $0                        Undetermined
4     Projection of Unallowables                                        Undetermined



TOTALS--ALL FINDINGS                                                    Undetermined   $977,684   Undetermined            .              _    :

      6. Remarks: Finding 1: Use of Corporate Credit Cards. We do not have sufficient information
         to determine if Bechtel returned the full amount of rebates associated with contract travel to
         the Department. Finding 2: Foreign Travel. We are questioning $267,390.53 for FY 1999;
         $317,008 for FY 2000; and $393,285.84 for FY 2001 based on problems identified with
         foreign travel. Finding 3: Records Destroyed. There are no costs associated with this finding.
         Finding 4: Projection of Unallowables. We were unable to determine the extent of
         unallowable costs for FY 1999 since the Internal Audit workpapers did not show statistical
         sampling techniques.


      7. Contractor:  None                              10. Approvals:
      8. Contract No.: None                                 Division Director & Date'•7 •                                     /,-   90            --
      9. Task Order No.:             None                    Technical Monitor & Date                            /   \/
                                               Offic. of the Inspector General (OIG)
                                          Audit Project Office Summary                                   (APS)

                                                                                                                                                 Page 1
Report run on:                  October 11, 2002 6:14 PM


  Audit#: A02LV029            Ofc:   LVA         Title: BECHTEL NEVADA FY 2001 SCIC

                                 -   I.    ,                                                                      ..-.           -       .   -



                                                     --------------          lanned  ---------------                             Actual
                                                Profile                  End of Survey          Revised
   Entrance Conference:                        01-JUL-02                   10-JUN-02              10-JUN-02          10-JUN-02

   Survey Completed:
   Field Work Complete:                                                    30-JUL-02              01-AUG-02              28-AUG-02
   Draft Report Issued:                                                                           01-AUG-02              28-AUG-02
  Exit Conference:                                                                                19-SEP-02              19-SEP-02
   Completed with Report:                      30-SEP-02                                          18-OCT-02
   ---------      Elapsed Days                           91                                               130                    124
   -----------     Staff Days:                           35                            0                                             102

   Date Suspended:                                                    Date Terminated:
   Date Reactivated:                                                  Date Cancelled:
   DaysSuspended(Cur/Tot):                     0 (                  )Report Number:
  Rpt Title:

                                                     ** .i     . dtCbdes-:an-d
                                                                 ...                       Personnedl   **i                          .               *



  Aud Type: VAN         VANEA AUDITS
  Category: DWA         WEAPONS ACTIVITIES                                         AD:            164    SCOFIELD
  DOE-Org: NNS          NATIONAL NUCLEAR SEC                                       AIC:           765    WILSON
  Maj Iss:  011         FINANCIAL MANAGEMENT                                       HDQ-Mon:              Not Found.
   Site:          SSA SINGLE-SITE AUDIT                                            ARM:                  Not Found

                                                                  STask Information,**,

          Task No:
          Task Order Dt:                                             CO Tech. Rep:
          Orig Auth Hrs:                                             Orig Auth Costs:
          Current Auth:                                              Current Auth Cost:
          Tot Actl IPR Hr:                                           Tot Actl Cost:


                                                             ..                '.- Charges '
                                                                   .'.';' T...ime:..
            * .
           ...       Emp/Cont Name'i :                                         Las Da
                                                                               tNumdaysi                                 .   .                        ,

                     DONNELLY, M                        3.4                   24-AUG-02
                     SCOFIELD, V                        9.3                   05-OCT-02
                     BOYLE, K                         43.3                    21-SEP-02
                     WILSON, B                        46.4                    05-OCT-02
                     Total:                          102.4
DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


memorandum
       DATE:    November 27, 2002
  REPLY TO
   ATTN OF:     IG-35 (A02LA042/A02LL019)

   SUBJECT:     Final Report Package for "Recruitment and Retention at the Los Alamos and Lawrence
                National Laboratories"
          TO:   Director for Performance Audits and Administration

                Attached is the required final report package on the subject audit. The pertinent details are:

                1. Actual Staff days: 149

                   Actual Elapsed days: 90

                2. Names of OIG audit staff:

                      Assistant Director: David Sedillo
                      Team Leader: Ron Archuleta
                      Auditor-in-Charge: Terri Roberts
                      Audit Staff: Katherine Balke, David Gonzales, Tania Maybee

                3. Coordination with Investigations and Inspections: Adrian Gallegos, Investigations on
                   August 23 and November 13; Henry Minner, Inspections on August 23, and Geoffrey
                   Gray, Inspections on November 20, 2002.




                                                        a    nce R     kerly, Division D tor
                                                       National Nuclear Security Admfistration
                                                        Audits Division
                                                       Office of Inspector General

                Attachments:
                1. Final Report (2)
                2. Monetary Impact Report
                3. Audit Project Summary Report
                4. Audit Database Information Sheet
                            MONETARY IMPACT OF REPORT NO.: OAS-L-03-06

1. Title of Audit:           Recruitment and Retention at the Los Alamos and Lawrence Livermore
                             National Laboratories.

2. Division:                 NNSA Audits Division/Los Alamos Audit Group

3. Project No.:              A02LA042/ A02LL019

4. Type of Audit:

            Financial                                                   Performance
              Financial Statement                                              Economy and Efficiency
              Financial Related                                                Program Results                                 X
            Other (specify type):
5.
                                                                                                             MGT.         POTENTIAL BUDGET
              FINDING                 BETTER USED                         QUESTIONED COSTS                 POSITION            IMPACT
                                            Recurring
      (A)           (B)        (C)    (D)      (E)        (F)        (G)             (H)        (I)           (J)               (K)
                    Title     One    Amount   No.        Total    Questioned     Unsupported   Total       C-Concur            Y-Yes
                              Time     Per    Yrs.      Amount     Portion         Portion                 N-Noncon            N-No
                                      Year                                                                 U=Undec




     TOTALS--ALL FINDINGS                                    0             0               0           0       .



6. Remarks: The Los Alamos Audit Group completed the subject audit and concluded that there
            are no material findings. The Los Alamos and Lawrence Livermore Laboratories
            addressed all of the recruitment and retention program objectives. The
            Laboratories collaborated and developed indicators to track the progress of Critical
            Skill Employees and assessed current and future workforce projections over the
            next five years

7. Contractor:              None                                 10. Approvals:
8. Contract No.:   None                                               Division Director & Da                                            /,/_/
9. Task Order No.:   None                                             Technical Advisor & Dae                         _                  //
                                                           Office of the Inspector General                                               (OIG)
                                                   Audit Project Office Summary (APS)
                                                                                                                                                                                       Page 1
Report run on:                          November 20, 2002 11:53 AM


  Audit#: A02LA042                     Ofc:       LAA           Title:             RECRUITMENT RETENTION                                PROGRAM LOS ALAMOS                LAB

                                                                                                                                                                                   i
                         '*        V,'                                             ^ ***'      Mi'ds'tones             ****                   c.          '*.                  ,       .   '

                                                                                    --         P-------
                                                                                                lanned  ----------------                                        Actual
                                                              Profile                       End of Survey          Revised

   Entrance Conference:                                 15-JUL-02                             22-AUG-02                       22-AUG-02             22-AUG-02

   Survey Completed:                                    30-AUG-02                             24-OCT-.02                          24-OCT-02         24-OCT-02

   Field Work Complete:
   Draft Report Issued:                                                                        15-NOV-02                          29-NOV-02
   Exit Conference:
   Completed with Report:                               01-MAR-03
   ---------    Elapsed Days                                         229                                                                                             90
   ----------        Staff Days;                                     270                                       0                                                149

   Date Suspended:                                                                       Date Terminated:
   Date Reactivated:                                                                     Date Cancelled:
   DaysSuspended(Cur/Tot):                                 0 (                       ) Report Number:
  Rpt Title:

                                                  .,       .;,ii**        Audi't' Code                ' ·and .Pdeison'             1,4****


   Aud Type: PRR               PROGRAM RESULTS
   Category: OTH              OTHER                                                                          AD:                  402     ARCHULETA
   DOE-Org: NNS               NATIONAL NUCLEAR SEC                                                           AIC:      745                ROBERTS
   Maj Iss:                   Not Found                                                                      HDQ-Mon:- 432                GAMAGE
   Site:         SSA SINGLE-SITE AUDIT                                                                       ARM:             152         SEDILLO



          Task No:
          Task Order Dt:                                                                 CO Tech. Rep:
          Orig Auth Hrs:                                                                 Orig Auth Costs:
          Current Auth:                                                                  Current Auth Cost:
          Tot Actl IPR Hr:                                                               Tot Actl Cost:

                                                                                                                                                      :
                              ,'   i     -    ^                 '^    .    ****I                    C'ag'.**'.Time''
                                                                                                     h                        j                       .'        .i        ..

                     '        ,p/Cont Name             "        Numdaays                    . 'I    Last'Date ..                          '

                     ARCHULETA, A                                         2.6                       05-OCT-02
                     BALKE, K                                        20.7                           16-NOV-02
                     MAYBEE, T                                       28.4                           02-NOV-02
                     GONZALES, D                                     42.7                           02-NOV-02
                     ROBERTS, T                                            55                      16-NOV-02
                         Total:                                      149.4
           AUDIT DATABASE INFORMATION SHEET


1. Project No.: A02LA042/AO2LL019

2. Title of Audit: Audit on Recruitment and Retention at the Los Alamos and
   Lawrence Livermore National Laboratories

3. ReportNo./Date: 04S
                     5-03-t,             N'vezbr', po9,V

4. Management Challenge Area: Human Capital

5. Presidential Mgmt Initiative: Human Capital

6. Secretary Priority/Initiative: None

7. Program Code: DP-3 Program Support

8. Location/Sites: Los Alamos National Laboratory
                   Lawrence Livermore National Laboratory

9. Finding Summary: The Los Alamos Audit Group completed the subject audit and
   concluded that there are no material findings. We found that Los Alamos and
   Lawrence Livermore Laboratories (Laboratories) have addressed NNSA's
   recruitment and retention program objectives. The Laboratories have developed
   and deployed a multi-laboratory strategy to recruit and retain Critical Skill
   Employees (CSE).

   The Laboratories have collaborated and developed indicators to track the progress
   of CSE and assessed the current and future workforce projection over the next
   five years. In addition, the Laboratories have integrated and deployed incentives
   to recruit and retain CSE. For example, the Laboratories have initiated signing
   bonuses for new employees, monthly stipends for high turnover areas, flexible
   work schedules, and mentoring programs to match early career employees with
   eligible retirees. Along with employee incentives, the Laboratories developed
   collaboration with other research universities, increased the recruiting personnel,
   and promoted a positive public perception of the Laboratories.

   Although the Laboratories have succeeded in developing and implementing a
   multi-program strategy to recruit and retain CSE, it is too early to measure the
   program's effectiveness. Thus, we want to stress the importance of measuring and
   monitoring the Laboratories efforts to ensure that NNSA's future needs are met.
10. Keywords:
    Recruitment
    Retention
    Critical Skill Employees
    Los Alamos National Laboratories
    Lawrence Livermore National Laboratories
    Signing Bonuses
    Monthly Stipends
    Flexible Work Schedules
    Mentoring Programs
    Employee Incentives
    Collaboration with other Research Universities
    Recruiting Personnel
    Public Perception
